                                                                               memorandum
Regional Inspector General
        Pretoria




                             June 19, 2000

                             Director, USAID/ Malawi, Kiertisak Toh

                             Regional Inspector General/ Pretoria, Joseph Farinella

                                    Audit of the Accuracy of USAID/ Malawi’s Recipient Audit
                             Universe, Report Number 4- 612- 00- 009- P


         This is the final report on the subject audit. We received your comments to our draft report and
         included those comments as Appendix II to this report.

         This report contains four recommendations. Please advise this office within 30 days of your planned
         actions to address the audit recommendations. I appreciate the cooperation and courtesies extended
         to my staff during the audit.

         Background

         Financial audits of contracts and grants are a primary basis for effective management and control
         of USAID’s program expenditures. These audits are designed to provide Agency management
         reasonable assurance that transactions are properly recorded and accounted for; laws and
         regulations, and provisions of contract or grant agreements are complied with; and USAID- financed
         funds, property and other assets are safeguarded against unauthorized use or disposition.

         In response to Congressional concerns, USAID has taken an active role in recent years using audits
         as a management tool to improve financial accountability of its programs. During 1991 and 1992,
         the Agency revised its standard provisions for its contracts and grants, requiring annual audits of
         non- U.S. organizations disbursing USAID funds of $25,000 or more. The threshold was increased
         to $100,000 in May 1994 and to $300,000 in July 1998.

         Furthermore, in April 1992, USAID issued a General Notice, defining the role of USAID missions in
         obtaining audits of their contracts, grants and cooperative agreements with non- U.S. organizations.
          In May 1996, these requirements were incorporated into chapter 591 of USAID’s Automated Directives
         System (ADS) which, among other things, requires USAID missions to (i) establish an audit
         management program; (ii) maintain an audit inventory database; and (iii) have audits done for non-
         U.S. grants, contracts and cooperative agreements that meet the audit threshold.
These initiatives are of far reaching consequence in preventing misuse of USAID development funds
and facilitating timely corrective actions by the Agency. Lack of adequate audit coverage constitutes
an unacceptable risk because, without such a control mechanism, financial accountability of program
expenditures cannot be reasonably assured.

In March 1995, the Office of Inspector General (OIG) issued Audit Report No. 03- 95- 009 on USAID’s
implementation of the Agency’s 1992 initiative to improve the financial management of its programs.
 The report concluded that most missions had implemented the general requirements of the financial
audit management program and established audit inventory databases. However, complete coverage
was impaired as a result of obstacles arising from host government restrictions and local audit firm
capabilities.

In March 1998, the OIG issued Audit Report No. 3- 000- 98- 002- F on USAID missions’ roles in
obtaining audits of their contracts, grants, and cooperative agreements. The report concluded that
11 of the 14 USAID missions selected Agency- wide generally obtained audits of their contracts,
grants, and cooperative agreements as required by ADS chapter 591. However, a significant number
of required audits were not completed at 10 of the audited 14 USAID missions.

In May 1999, OIG management decided to verify the accuracy of USAID missions’ recipient audit
universe worldwide over a period of three years because lack of audit coverage was perceived as a
high-risk area. Accordingly, RIG/ Pretoria included this audit in its fiscal year 2000 audit plan.


Audit Objective

RIG/ Pretoria performed this audit to verify the accuracy of the recipient contracted audit universe
at selected USAID Africa Bureau Missions. The audit objective follows:

Is USAID/ Malawi’s audit universe accurate and were required audits conducted in a
timely manner?

The audit scope and methodology are described in Appendix I.




Audit Findings

The audit showed that USAID/ Malawi developed an accurate audit universe. However, required audits
were not always conducted in a timely manner.

                                                 2
As of February 29, 2000, USAID/ Malawi disbursed approximately $92.5 million to 57 U.S.
organizations, 10 non- U.S. organizations and 2 International private voluntary organizations. The
table below provides a breakdown of these disbursements by type of agreement and by number and
type of recipients:


                             U.S.                     Non- U.S.           International PVO          Total
                   Disbursements and No.       Disbursements and          Disbursements and Disbursements and No.
     Type of            Of Recipients          No. Of Recipients          No. Of Recipients      Of Recipients
    Agreement
Contract                  $42,955,489 28                    -         -        -         -       $42,955,489 28
Grant                      27,104,878 14           $2,402,106 8              $7,371,581 2         36,878,565 24
Cooperative                12,709,325 15                              2            -     -        12,709,325 17
Agreement                                                         0
           TOTAL        $82,769,692 57            $2,402,106 10           $7,371,581     2     $92,543,379 69



From the above table, we determined (as of February 29, 2000) that of the 10 non- U.S. grant and
agreement recipients listed only 4 with total disbursements of $2,287,722 were subject to audit
coverage for the years 1997, 1998 and 1999. The other 6 non- U.S. recipients consisted of newly
awarded grants or agreements which were not yet subject to an audit or awards that fell below the
audit threshold of $100,000.

We ascertained that all 10 recipients were included in the Mission’s audit database inventory, and that
the Mission took several actions to implement an audit management program in accordance with the
requirements of ADS Chapter 591which included:

•   establishing a Management Control Review Committee to monitor the status of the Mission’s audit
    program and to assure that its audit responsibilities were carried out;

•   designating an audit management officer to coordinate and monitor the Mission’s financial audit
    program and follow up on implementation of recipient- contracted audit recommendations;


•   including required audit clauses in its grants and contracts and budgeting funds for audits; and

•   maintaining an automated inventory of contracts, grants, and cooperative agreements requiring
    audits and to track such audits.

Audit Coverage
Needs Improvement

                                                  3
Chapter 591 of USAID’s Automated Directives System requires overseas missions to establish an audit
management system and obtain audits of its non- U.S. grantees and contractors. Among other
things, Missions should establish operational guidance, assign audit management responsibilities,
develop an annual audit plan, and maintain appropriate audit inventory and tracking systems to
facilitate audits of awards to non- U.S. recipients in accordance with U.S. government auditing
standards. In addition, USAID’s “                                                             ” states
that reports resulting from these audits are to be submitted to the cognizant OIG audit office within
9 months (previously within 13 months) after the recipient’s fiscal year- end for review and release.

While the Mission maintained an automated audit inventory system, monitoring and report handling
were not adequate to ensure that required audits were completed in a timely manner. The Mission’s
financial records showed that 4 non- U.S. recipients received a total of $2,287,722 in cumulative
disbursements from October 1, 1996 through February 29, 2000 that triggered thresholds requiring
audits for the years 1997, 1998 and 1999. For these four recipients, we found that:

•   Under one grant (No. 612- G- 00- 95- 00346), the Mission had two current audit reports on file
    for the periods ending September 30, 1997 and 1998, neither of which had been forwarded to
    the Regional Inspector General in Pretoria (RIG/ Pretoria) for review. These audit reports were
    subsequently forwarded to RIG/ Pretoria at the conclusion of this audit’s fieldwork.

•   Under another grant (No. 612- O- 00- 99- 00173), the first audit for the period May 29, 1992
    through June 30, 1997 was being completed at the time of this audit’s fieldwork.

•   Under two limited scope grant agreements with the Government of Malawi (Nos. LSGA- 95- G-612-
    0243.01 and LSGA- 97- G- 612- 0243.03), the Mission had an alternative procedure in place in
    lieu of the audit to ensure proper accountability of USAID funds. (The Mission chose to review all
    payment vouchers until such time that the Auditor General of Malawi is capable of auditing
    USAID- funded programs with government entities).

The above conditions occurred primarily because the Mission’s audit inventory data base system did
not include two important data elements which would be useful to identify and expedite audits: (1)
dates when audits are to be scheduled; and (2) dates when audit reports are due from each
recipient. Also, although there was a Mission Order in place dealing with audit policy and procedures,
it was not explicit as to the requirements for audit monitoring and report handling and disposition
procedures. For example, the Mission Order was silent on the requirement that all recipient-
contracted audit reports are to be submitted to the cognizant OIG office within a prescribed time
period for review.

Without complete recipient-contracted audit coverage, USAID/ Malawi did not have adequate assurance
that audits for two of its four non- U.S. recipients were conducted in accordance with USAID
requirements, or that USAID disbursements of $1.6 million were supported and eligible under the
terms of the agreements. Therefore, the Mission needs to take more aggressive action to facilitate
timely and complete audit coverage of its non- U.S. recipients.
                                                 4
          Recommendation No. 1: We recommend that USAID/Malawi:

          1.1   include in its audit inventory database a schedule of when required audits
                are to commence, and dates when the audit reports are due from the
                recipients;

          1.2   revise its Mission Order on Audit Policy and Procedures to include explicit
                recipient-contracted audit monitoring and report handling and disposition
                procedures;

          1.3   implement a plan of action to obtain a current audit of its non-U.S. recipient
                under Grant Number 612-O-00-99-00173 that was required to be audited;
                and

          1.4   submit the audit reports for Grant Number 612-G-00-95-00346 for the
                periods ending September 30, 1997 and 1998 to the Regional Inspector
                General in Pretoria for review.


Management Comments and Our Evaluation

In its response to our draft audit report, the Mission agreed with the finding and recommendations
contained in the report. In addition, the Mission stated that it had already either initiated or
completed action on the recommendations. Based on this action, a management decision was
reached on Recommendation Nos. 1.1, 1.2, 1.3 & 1.4 upon issuance of this report. USAID’s Office
of Management Planning and Innovation [M/ MPI] should be advised for final action on the
recommendations.

The Mission’s comments are included in their entirety in Appendix II.




                                                 5
                                                                                    APPENDIX I



                               SCOPE AND
                              METHODOLOGY




Scope

The audit was performed in accordance with generally accepted government auditing standards and
assessed whether (1) USAID/ Malawi’s audit universe was complete and accurate, and (2) required
audits were done in a timely manner.

The OIG conducted a “Worldwide Audit of Selected Missions’ Role in Obtaining Audits of Their Contracts,
Grants and Cooperative Agreements (Report No. 9- 000- 98- 002- F,
March 20,1998). That report considered recipient financial audits which had been completed as of
October 31, 1996. For the purposes of this audit, we obtained information on audits completed from
October 1, 1996 through February 29, 2000.

Fieldwork was performed at USAID/ Malawi in Lilongwe, Malawi from March 6 through March 9, 2000
and covered approximately $2.4 million of USAID disbursements to non- U.S. based organizations.
The audit scope included:

 (1) reviewing the Mission’s audit management program and related documents,

 (2) interviewing cognizant Mission officials, and

 (3) reviewing the Mission’s automated database universe of contracts, grants, and cooperative
     agreements and identifying those that require audits

In addition, we obtained information on (1) total disbursements for all grants, contracts and
cooperative agreements (U. S. and non- U.S.) as of February 29, 2000 and, (2) the number and
amount of grants, contracts and cooperative agreements falling below the audit threshold of
$300,000 to obtain a complete picture of the Mission’s portfolio.

The audit criteria was principally comprised of Chapter 591 of USAID’s Automated Directives System
(ADS) and the OIG’s “Guidelines for Financial Audits Contracted by Foreign Recipients” (Guidelines),
revised in July 1998.

                                                  6
Methodology

The methodology included (1) reviewing the Mission’s audit inventory database system to determine
if it contains the information needed to monitor and track required audits, and (2) examining
documentation and (3) conducting interviews with cognizant officials to determine whether the Mission
has met its responsibilities established by ADS Chapter 591 and the Guidelines.

To answer our audit objective, we obtained the universe of USAID/ Malawi’s grants, contracts and
cooperative agreements and determined the number and dollar amounts of all agreements with non-
U.S. organizations subject to audit coverage at February 29, 2000. The above information was
obtained from the Mission’s contract files and the Mission Accounting and Control System (MACS)
database. We then ascertained whether: (1) such agreements were included in the Mission’s audit
database inventory, (2) required audits were completed on a timely basis, (3) audit reports were
prepared in accordance with USAID’s guidelines and sent to RIG/ Pretoria for desk review, and the (4)
agreements contained the required audit clauses.

We did not audit the Mission’s MACS database system because of time constraints and because it was
not directly relevant to our audit objective. Also, because of the small size of the audit universe,
we did not use a materiality threshold and considered even one exception as significant for reporting
purposes.




                                                 7
          APPENDIX II
    Management Comments
                Page 1 of 2




8
          APPENDIX II
    Management Comments
                Page 2 of 2




9
